U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jiahao Kuang, et al. v. United States, No. 19-1194
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 30,
2020, and placed on the docket on April 2, 2020. The government’s response is now due, after
one extension, on June 3, 2020. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including August 14, 2020, within which to file a
response.
This extension is necessary because the government is presently undertaking a review of
whether to retain the policy that is the subject of the petition for a writ of certiorari, and the
government’s decision at the conclusion of that review may moot this litigation. The government
anticipates completing its review by the end of July 2020.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1194
KUANG, JIAHAO, ET AL.
DEPT. OF DEFENSE, ET AL.

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

